OIG Audit Report GR-30-99-007
Office of Community Oriented Policing Services Grants to the Maryland-National Capital Park Police Montgomery County Division, Maryland
Audit Report GR-30-99-007
September 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the, Office of Community Oriented Policing Services to the Maryland-National Capital Park Police, Montgomery County Division (Grantee), in Silver Spring, Maryland.  The purpose of the grants is to enhance community policing.  The grantee was awarded three MORE grants totaling $775,003 to purchase equipment and technology and redeploy the equivalent of 31.8 existing full-time officers from administrative duties to community policing.  
	
	We reviewed the grantee's compliance with six essential grant conditions.  We found that the grantee complied with grant requirements for local matching funds, reimbursement requests, plans for maintaining COPS funded equipment and technology, community policing activities and redeployment.  However, we found a weakness in financial status reporting as identified below.  

Financial status reports were not submitted timely, and several of them were not filed.  

This item is discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.